                          U.S. Department of the Interior
                              Office of Inspector General




Improvements Needed In Developing and
Reporting On GPRA Goals and Measures:
Reducing Threats to
Public Health, Safety, and Property




                            Bureau of Land Management


Report No. 2002-I-0047                  September 2002
                                                                              S-IN-BLM-010-01-D

                United States Department of the Interior

                                 Office of Inspector General
                                        Eastern Region Audits
                                          381 Eldon Street
                                              Suite 1100
                                       Herndon, Virginia 20170


                                                                               September 25, 2002

Memorandum

To:            Assistant Secretary, Land and Minerals Management

From:          Robert Romanyshyn
               Regional Audit Manager, Eastern Region

Subject:       Final Audit Report on Improvements Needed In Developing and Reporting On
               GPRA Goals and Measures, Bureau of Land Management
               (Report No. 2002-I-0047)

The attached report presents the results of our review of the Bureau of Land Management’s
(BLM) reporting of its fiscal year 2000 Government Performance and Results Act (GPRA)
program activity 1.04 related to reducing threats to public health, safety, and property. This
program activity reports on BLM’s efforts to protect public lands and facilities from
unauthorized uses, hazardous materials, illegal dumping, theft, wildfire, and other unsafe
conditions.

In the July 31, 2002 response to our draft report, the Director of BLM concurred with the
report’s six recommendations. Based on this response and the milestone dates subsequently
provided, we consider the recommendations to be resolved. Accordingly, no further response
from BLM is needed, and we are referring the recommendations to the Assistant Secretary for
Policy, Management and Budget for tracking of implementation (see Appendix 4, Status of
Audit Recommendations).

The legislation, as amended, creating the Office of Inspector General, (5 U.S.C. App. 3) requires
semiannually reporting to Congress on all audit reports issued, actions taken to implement audit
recommendations, and recommendations that have not been implemented.

We appreciate BLM’s cooperative spirit in working together throughout the audit to
communicate issues and obtain a consensus so that recommended actions address mutually
agreed upon needed improvements in GPRA reporting. If you have any questions regarding this
report, please call me at (703) 487-8011.

Attachment

cc:     Director, Bureau of Land Management
Executive Summary
Bureau of Land Management
Improvements Needed In Developing and Reporting On
GPRA Goals and Measures

Background and     The 1993 enactment of the Government Performance and Results
Objectives         Act (GPRA) requires each federal department and agency to
                   prepare annual performance reports comparing planned
                   accomplishments for mission-related activities with the results
                   actually achieved. The Bureau of Land Management (BLM)
                   developed GPRA program activity 1.04 on health, safety, and
                   property to address the increased risks and responsibilities
                   resulting from population growth in the West; evaluate safety
                   concerns; identify hazards and risks; and implement procedures to
                   protect public lands as well as employees and visitors.

                   Our objectives were to determine whether BLM (1) developed
                   appropriate performance goals and measures for program activity
                   1.04 - Reduce Threats to Public Health, Safety, and Property and
                   (2) accurately reported performance data and related information
                   for goals and measures under this activity.


                   BLM should revise several of its performance goals and measures
Results in Brief   to improve performance information provided to BLM managers
                   and to decision makers in Congress and the Office of Management
                   and Budget (OMB). BLM should also consider adding at least two
                   comprehensive safety and property goals and/or measures related
                   to visitor and employee safety and deferred maintenance. In
                   addition, BLM staff and management should be held accountable
                   for ensuring that the data used to report BLM performance are
                   accurate. Finally, there appears to be a lack of understanding
                   throughout BLM of the increasing importance of performance
                   management and results.




                                                   i
Opportunities for   We made six recommendations based on our identifying the
Improvement         following opportunities for BLM to improve its GPRA reporting.

                       •   BLM could build on its experience with collecting and
                           reporting data for its GPRA goals and performance
                           measures by updating the goals and measures to ensure that
                           they meet the GPRA requirements of focusing on BLM’s
                           mission and performance. BLM could also provide
                           guidance and training for staff at all levels on how GPRA
                           reporting requirements are related to the day-to-day
                           operations of field personnel.

                       •   BLM could establish a data verification and validation
                           process to ensure the accuracy of the GPRA data reported
                           at all levels. Any such effort should include certification to
                           the accuracy of the data included in the GPRA report.
                           BLM would also be more successful in reporting accurate
                           data and related information if it developed procedures to
                           accumulate information supporting the GPRA data
                           reported.


                    The BLM concurred with the report’s six recommendations.
Agency Response     Based on BLM’s response and the milestone dates subsequently
and Office of       provided, we consider the recommendations resolved but awaiting
Inspector           implementation.
General Reply




                                                     ii
Table of Contents

                                                                                                                Page

                    Introduction ............................................................................     1
                       Background ........................................................................        1
                       Objectives and Scope .........................................................             2

                    Results of Audit ......................................................................       4
                    Improvements Needed In Developing and Reporting On
                       GPRA Goals and Measures .............................................                      4

                    Performance Goals and Measures Should be Revised .......                                      4
                       Basis for Determining Appropriate Measures ...................                             4
                       Measure Did Not Support Overall Goal ............................                          5
                       Managers Lacked Control Over Achieving Results ..........                                  6
                       Measures Were Not Outcome Oriented .............................                           7
                       Measures Did Not Address Key Safety Issues ..................                              7
                       BLM Staff Lacked Experience with GPRA .......................                              9

                    Improvements Needed for Accurate Reporting ..................                                 9
                       Facilities and Roads Data Were Not Accurate
                          or Current ......................................................................      10
                       CASHE Data Accuracy was Questionable ........................                             12
                       Abandoned Mines Reporting was Inaccurate ....................                             13
                       Hazardous Materials Reporting was Inaccurate ................                             14
                       Law Enforcement Accomplishment was Overstated .........                                   14
                       Data Were Not Systematically Verified ...........................                         15
                       Improving the Usefulness of the GPRA Report to
                          Decision Makers ..........................................................             17

                    Recommendations ..................................................................           17

                    Agency Response and Office of
                       Inspector General Reply ..................................................                18

                    Appendices

                    1.   Scope and Methodology ....................................................              20
                    2.   Prior Audit Coverage .........................................................          22
                    3.   Agency Response ...............................................................         23
                    4.   Status of Audit Recommendations .....................................                   27




                                                                   iii
Abbreviations

AMLIS ......................... Abandoned Mine Lands Inventory System
BLM .................................................. Bureau of Land Management
CASHE ..................................... Compliance Assessment - Safety,
                                                         Health, and the Environment
DOI ....................................................... Department of the Interior
FIMMS .......................................... Facility Inventory Maintenance
                                                                 Management System
GAO ..................................................... General Accounting Office
GPRA ........................... Government Performance and Results Act
MIS ........................................... Management Information System
OIG ..................................................... Office of Inspector General
OMB ........................................ Office of Management and Budget




                                         iv
Introduction

Background     GPRA requires federal departments to prepare annual performance
               plans setting out specific, measurable goals and to submit annual
               performance reports comparing actual performance with these
               goals. The first annual performance report, which covered fiscal
               year 1999, was due March 31, 2000. GPRA was a result of
               Congressional concern that “Federal managers are seriously
               disadvantaged in their efforts to improve program efficiency and
               effectiveness, because of insufficient articulation of program goals
               and inadequate information on program performance.” The
               purpose of GPRA was to “help Federal managers improve service
               delivery, by requiring that they plan for meeting program
               objectives and by providing them with information about program
               results and service quality.” BLM’s performance plan and report
               for fiscal year 2000 included eight GPRA program activities.

               BLM GPRA program activity 1.04 addresses the reduction of
               threats to public health, safety, and property. Within this activity,
               BLM established five annual goals to assess its performance in
               protecting public lands and facilities from unauthorized uses,
               hazardous material, illegal dumping, theft, wildfire, and other
               unsafe conditions. BLM also established twelve performance
               measures to evaluate the success of specific activities in meeting
               its five goals, as follows:




                                                 1
                                                        Table 1

                                    Annual Goal                             Performance Measure
                     In FY 2000, the percentage of                 Percent of administrative facilities in
                     administrative facilities maintained          fair or good condition.
                     in fair or good condition will increase       Percent of dams in fair or good
                     to 87%; bridges will increase to 94%,         condition.
                     and dams will increase to 59%. A              Percent of bridges in fair or good
                     baseline percentage for facilities in         condition.
                     good safety, health, and                      Percent of facilities (CASHE
                     environmental condition will be               Program) in good safety, health, and
                     established.                                  environmental condition.
                     In FY 2000, assess condition of 3%            Percentage of roads assessed to
                     of BLM-maintained roads to identify           identify access needs, maintenance
                     access needs, maintenance                     requirements, and closures.
                     requirements, and prospective road
                                                                   Percentage of roads in fair or good
                     closures, and improve 60% of BLM
                                                                   condition.
                     roads to be in fair or good condition.
                     In FY 2000, identify and correct              Number of abandoned mine physical
                     physical safety hazards at zero               safety hazards identified and
                     abandoned mines and cleanup 135               corrected.
                     hazardous materials sites on public           Number of hazardous materials
                     lands.                                        cleanup actions completed.
                     In FY 2000, maintain an increase of
                     at least 1% (to 47%) in the number of
                                                                   Percentage of reported violations
                     reported violations resulting in
                                                                   resulting in enforcement actions.
                     enforcement actions compared to
                     1999.
                     In FY 2000, implement 35% of Fire             Percentage of FMPs implemented.
                     Management Plans, reduce the 10-
                     year average of human caused fires            Percentage of human-caused fires.
                     to 27%, and upgrade 9 (cumulative)
                     fire facilities to approved standards.        Number of fire facilities upgraded.


                 Our objectives were to determine whether BLM (1) developed
Objectives and   appropriate performance goals and measures1 for program activity
Scope            1.04 - reduce threats to public health, safety, and property and (2)
                 accurately reported performance data and related information for
                 the goals and measures under this activity.

                 We selected GPRA program activity 1.04 in consultation with
                 BLM staff. We did not review the goal with three measures
                 regarding the fire program for this activity because BLM had
                 substantially changed the goal and measures for fiscal year 2001.
                 Like other federal agencies, BLM is working to improve its GPRA
                 reporting as it gains experience in performance planning,

                 1
                  BLM’s GPRA performance measures are repeated in its performance goals.
                 As a result, if a measure is revised or added an associated goal must be revised
                 or added. To avoid repetition, we will use the term measure, rather than goal
                 and measure, throughout the report.



                                                               2
management, and reporting. Recognizing weaknesses in its fiscal
year 2000 fire program goal and measures, BLM revised them for
fiscal year 2001, eliminating two measures, revising the wording
of the third, and adding four new measures.

Our review of program activity 1.04 involved several BLM offices:
the BLM Protection and Response Group, the National Law
Enforcement Office, and the Management Systems Group. The
Protection and Response Group, which handles environmental
compliance and protection, cleanup of hazardous material sites,
abandoned mine lands, facilities maintenance, and engineering, is
responsible for three goals with eight of the performance measures.
The National Law Enforcement Office, which provides BLM-wide
leadership and guidance for law enforcement, security, and
investigative actions to protect resources under BLM jurisdiction,
oversees one goal with one performance measure. The
Management Systems Group works on GPRA requirements for
strategic planning, performance measurement, and reporting;
prepares annual GPRA plans and reports; and performs validation
and verification reviews of performance data.

The scope and methodology of our review, including the sites
visited, are further detailed in Appendix 1. Prior reviews related to
our GPRA audit are summarized in Appendix 2.




                                  3
Results of Audit

Improvements       Some fiscal year 2000 performance goals and measures for the
                   health, safety, and property program activity were not appropriate;
Needed In          that is, they did not support the overall goal, or they were not under
Developing and     the direct control of federal managers or outcome oriented. In
Reporting On       addition, BLM did not have goals or measures for key safety
                   issues. We attributed this condition to a lack of experience in
GPRA Goals and     implementing GPRA. BLM employees are still developing
Measures           expertise in meeting GPRA reporting requirements. BLM also
                   reported inaccurate or incomplete data for eight measures because
                   of limited data verification at all levels of the organization.
                   Additionally, BLM did not have procedures in place to accumulate
                   sufficient documentation to support the performance data used in
                   GPRA reporting. Once appropriate goals and measures are
                   selected, accurate data and information will improve program
                   accountability of managers and allow Congress and OMB to better
                   evaluate BLM’s performance and make decisions on
                   appropriations.


Performance        BLM needs to improve the performance goals and measures for its
Goals and          program activity to reduce threats to public health, safety, and
                   property. Four of the nine performance measures reviewed needed
Measures Should    revision, and two additional measures should be developed to
be Revised         appropriately measure and report BLM’s progress in this activity.
                   The measures were not appropriate because, like many federal
                   agencies, BLM managers lacked experience in GPRA reporting
                   and in linking GPRA reporting requirements to day-to-day
                   operations. The measures do not provide sufficient information for
                   decision-making by BLM managers, Congress, or OMB.

Basis for          The criteria we used for determining the appropriateness of the
Determining        performance measures were general compliance with the
                   requirements of GPRA and OMB. Specifically, the performance
Appropriate
                   aspect or target for the measure should support the overall goal of
Measures           reducing threats; managers should have control over meeting
                   accomplishments; and accomplishment of the performance
                   measure should be outcome related whenever possible. We found
                   that four of the nine performance measures reviewed did not meet
                   these criteria (please see Table 2).




                                                     4
                                                       Table 2

               Goal
                                             Performance Measure                               Appropriateness
              Number
                         Percent of administrative facilities in fair or good condition.             Yes
                         Percent of dams in fair or good condition.                                  Yes
              01.04.01   Percent of bridges in fair or good condition.                               Yes
                         Percent of facilities (CASHE Program) in good safety,             Measure definition did
                         health, and environmental condition.                              not support overall goal.
                         Percentage of roads assessed to identify access needs,
                                                                                                     Yes
              01.04.02   maintenance requirements, and closures.
                         Percentage of roads in fair or good condition.                                Yes
                                                                                           No management control
                         Number of abandoned mine physical safety hazards
                                                                                           and “not outcome
                         identified and corrected.
              01.04.03                                                                     oriented.”2
                                                                                           No management control
                         Number of hazardous materials cleanup actions completed.
                                                                                           over illegal dumping.
                         Percentage of reported violations resulting in enforcement
              01.04.04                                                                     Not outcome oriented.
                         actions.


Measure Did Not          The Compliance Assessment - Safety, Health, and the
                         Environment (CASHE) program evaluates BLM’s facilities and
Support Overall          operations for compliance with federal, state, and local safety,
Goal                     health, and environmental regulations. These evaluations result in
                         a list of findings to be addressed to bring a facility up to standard.
                         While this goal was appropriate, the definition of the CASHE
                         measure did not support the overall goal of reducing threats to
                         health and safety. As defined during fiscal year 2000, a facility
                         could be reported in GPRA as being in good safety, health, and
                         environmental condition if the number of uncorrected high priority
                         findings were four or less. A high priority finding might be the
                         combined storage of incompatible materials (such as corrosive and
                         oxidizing materials stored with flammable and combustible
                         liquids) or an uncovered electric junction box with exposed wiring
                         that posed an electrocution and fire hazard. Given these examples,
                         we believe that the number of high priority uncorrected findings
                         should be zero before a facility is classified as being in “good”
                         condition. According to the CASHE program manager, the zero
                         standard will be phased in over the next few years and become
                         effective in fiscal year 2005. We believe, however, that it would
                         be more consistent with the overall goal of reducing threats to
                         health and safety to have the same standard for safety in 2000 as in
                         2005 and to adjust the baseline and targets.

                         Other concerns regarding the CASHE program—the length of time
                         between inspections and facilities self-reporting that findings are
                         corrected—are discussed on page 12.

                         2
                             Resolved when “Identification” was removed from the goal in fiscal year 2002.



                                                                     5
Managers Lacked     BLM program managers for both abandoned mines and hazardous
                    materials had limited control over the accomplishments of
Control Over        performance measures for these activities. The correction of
Achieving Results   physical safety hazards at abandoned mines had zero budgets in
                    2000 and 2001 and zero planned accomplishments in 2000. As a
                    result, safety hazards were corrected in fiscal year 2000 through
                    funding from benefiting programs, such as Recreation
                    Management, the Mining Law Administration Program,3 and the
                    Watershed Cleanup Initiative. We recognize that the Program was
                    able to accomplish significant corrections in 2000 without its own
                    budget. However, this type of funding largely removed control
                    over accomplishments from the safety hazards staff, making it
                    difficult for them to prioritize safety, set realistic targets, and be
                    held accountable for meeting goals.

                    Likewise, accomplishing the hazardous materials performance
                    measure, which reports the number of hazardous material cleanups
                    completed by BLM, depends primarily on factors outside of
                    BLM’s control—that is, the amount of public dumping on BLM
                    land. The number of illegal dumping incidents, which account for
                    approximately 60 percent of the hazardous materials workload, can
                    fluctuate substantially from one year to the next. This prevents
                    BLM from establishing realistic targets and budgets for which it
                    can be held accountable. Field specialists stated that the current
                    measure did not reflect actual day-to-day operations because staff
                    have little control over the total number of cleanups performed
                    during the year. In effect, BLM cannot cleanup until the public
                    dumps. For example, if a BLM state office does not meet its target
                    of 30 cleanups because only 20 dumpings occurred in a year, the
                    threat to health and safety has actually diminished, but not as a
                    result of BLM efforts. An example of an approach that would give
                    BLM managers control over accomplishment would be developing
                    a measure that addressed the timeliness rather than the number of
                    hazardous cleanup actions.

Measures Were Not   Two of the performance measures reviewed—the physical safety
                    hazards of abandoned mines and law enforcement actions—were
Outcome Oriented    not results oriented. In fiscal year 2000, the abandoned mines
                    measure combined the identification of sites and the subsequent
                    correction of safety hazards. We concluded that to better focus on
                    outcomes, BLM should remove the identification portion of the
                    performance measure because mere identification of a site does not

                    3
                     An instruction memorandum was issued in April 2002 clarifying that MLAP
                    funds may no longer be used for the correction of physical safety hazards or any
                    other Abandoned Mine Lands activity.



                                                           6
                     reduce safety hazards. As a result of our discussions with BLM
                     staff, they removed identification from the measure for fiscal year
                     2002, thereby resolving our concern that the performance measure
                     was not outcome oriented.

                     The law enforcement measure—to increase the percentage of
                     reported violations resulting in enforcement actions—was also
                     based on output rather than outcome. Increasing the number of
                     enforcement actions may not actually reduce threats to public
                     safety. A 1 percent increase in the enforcement rate can result
                     either from additional enforcement actions on the same number of
                     offenses or from a reduction in the number of violations. BLM
                     law enforcement staff believe that a performance measure to
                     reduce crime depends on too many fluctuating variables, such as
                     staffing and workload, to accurately assess what is happening in
                     the field. In their opinion, the current measure, which targets
                     increased enforcement actions, better addresses performance.

                     We believe, however, that a measure to reduce the rate of
                     violations would more clearly focus BLM efforts on the goal of
                     reducing threats. For example, the Department of Justice
                     combines strategies for increased enforcement and crime
                     prevention with GPRA performance goals and measures. These
                     strategies stress the reduction and prevention of crime as well as an
                     improved prosecution rate for offenses. The Department of the
                     Interior’s (DOI) Bureau of Indian Affairs also has a law
                     enforcement performance measure that takes the seriousness of an
                     offense into account by concentrating on the reduction of violent
                     crimes. We understand that BLM’s law enforcement environment
                     is unique in many ways, but believe that BLM should consider
                     making the measure more results oriented.

Measures Did Not     While BLM managers have told us that current policy is to keep
Address Key Safety   the number of GPRA measures as low as possible, we believe that
                     BLM should consider adding at least two more measures to GPRA
Issues               program activity 1.04. Measures related to reducing significant
                     accidents, injuries, and incidents involving BLM visitors and
                     employees and reducing the backlog of health and safety related
                     deferred maintenance would be mission related and results oriented
                     and would specifically address material weaknesses identified in
                     past BLM internal reviews. These comprehensive measures could
                     either supplement or replace current measures covering only small,
                     individual programs.

                     DOI’s National Park Service has safety measures to reduce
                     accidents and injuries to both the public and employees, and we



                                                      7
                   believe BLM should consider a measure to decrease the rate of
                   accidents, injuries, and incidents of BLM visitors and employees.
                   Such a measure would address the recent emphasis on safety by
                   both the White House and the Secretary of the Interior and would
                   be an important indicator of BLM’s progress in accomplishing the
                   overall goal of reducing threats. BLM staff expressed concerns
                   about their ability to control public behavior resulting in accidents
                   or injuries. Visitor safety, however, will continue to be an issue as
                   the urbanization of Western states results in increasing numbers of
                   visitors to BLM-managed land. BLM has not incorporated a
                   GPRA measure for employee safety proposed by its Safety
                   Program manager into the annual plan to date. Data for this
                   measure could be reported in BLM’s existing Safety Management
                   Information System database.

                   GPRA measures also need to be developed for deferred
                   maintenance, especially maintenance related to health and safety
                   issues. Currently, neither the facilities’ measures nor the CASHE
                   measure directly address deferred maintenance, which is a material
                   weakness for both BLM and DOI. Recent Office of Inspector
                   General (OIG) and DOI reviews have identified a serious backlog
                   on health and safety deferred maintenance for BLM. (Please see
                   Appendix 2.) Although health and safety projects are prioritized in
                   BLM’s deferred maintenance 5-year plan, a backlog of over $20
                   million still exists according to BLM data. We noted that DOI,
                   National Park Service, U.S. Fish and Wildlife Service, and Bureau
                   of Indian Affairs have performance measures related to addressing
                   deferred maintenance issues to improve health and safety for both
                   visitors and employees. A performance measure to reduce BLM’s
                   deferred maintenance backlog would provide information on
                   progress being made to address the backlog and have a direct
                   impact on reducing threats to public health, safety, and property.

BLM Staff Lacked   We believe that the lack of experience with GPRA requirements
                   and/or experience with linking GPRA reporting requirements to
Experience with    day-to-day operations contributed to inappropriate GPRA
GPRA               measures. The fiscal year 2000 GPRA Report was the second
                   GPRA report prepared by BLM. We recognize that DOI bureaus
                   will require time to understand and fully implement reporting
                   requirements. Program staff throughout BLM were unfamiliar
                   with GPRA and its requirements. Although staff in the field had
                   experience with workload measures, they were not always
                   knowledgeable about GPRA or how workload measures related to
                   GPRA. BLM staff at all levels had questions and comments
                   related to the relevance and usefulness of the performance
                   measures for their programs. Management Systems Group



                                                     8
               managers stated that national program managers were now
               participating more actively in goal development and reporting.

               Three of the measures (law enforcement, abandoned mines with
               physical safety hazards, and CASHE) were reported on for the first
               time in fiscal year 2000. As a result, BLM had no practical
               experience with data collection and reporting for these measures
               prior to the 2000 report. In the case of hazardous material
               cleanups, field personnel have recognized, after 2 years of
               operational experience, that the measure should be revised to better
               reflect day-to-day operations. With additional experience in
               implementing the GPRA requirements BLM should be able to
               identify weaknesses in GPRA measures and make appropriate
               changes through actual collection and reporting of data and
               associated comments from BLM field specialists. BLM could also
               evaluate and improve the GPRA process by using its Continuous
               Improvement Process, which relies on the expertise of BLM’s
               workforce to build efficiency, effectiveness, and accountability
               into BLM’s work processes.


Improvements   Data reported in the fiscal year 2000 GPRA Report were
Needed for     inaccurate or incomplete for six of the nine performance measures
               reviewed (please see Table 3). In addition, all but one
Accurate       performance measure lacked sufficient disclosure or provided
Reporting      incorrect information on data limitations and data sources. As a
               result, BLM managers, Congress, and OMB did not have accurate
               or complete information about BLM’s efforts to reduce threats to
               public health, safety, and property. We identified several causes
               that contributed to the inaccurate or incomplete reporting of data
               and related information. Some causes, such as the lack of
               management oversight; inadequate guidance and training; and lack
               of procedures to support GPRA data, were program specific.
               Seven of the nine measures lacked procedures to accumulate
               supporting documentation and verify that data were accurately
               reported.




                                                9
                                                         Table 3

                                                                    Fiscal Year 2000      Reported Accurately
           Goal
                                 Performance Measure                                                 Related
          Number                                                    Goal    Reported      Data
                                                                                                  Information4
                     Percent of administrative facilities in fair
                                                                     87          84        No           No
                     or good condition.
                                                                                                5
                     Percent of dams in fair or good condition.      59          61       N/A           No
                     Percent of bridges in fair or good
          01.04.01                                                   94          92        Yes           No
                     condition.
                     Percent of facilities (CASHE Program) in
                     good safety, health, and environmental          60          59        No           No
                     condition.
                     Percentage of roads assessed to identify
                     access needs, maintenance requirements,           3          4        Yes          No
          01.04.02   and closures.
                     Percentage of roads in fair or good
                                                                     60          82        No           No
                     condition.
                     Number of abandoned mine physical
                                                                      --       650         No           No
                     safety hazards identified and corrected.
          01.04.03
                     Number of hazardous materials cleanup
                                                                    135        290         No           Yes
                     actions completed.
                     Percentage of reported violations
          01.04.04                                                   47          53        No           No
                     resulting in enforcement actions.

                             The percentage of both administrative facilities and roads reported
Facilities and Roads
                             in fair or good condition in the fiscal year 2000 GPRA Report was
Data Were Not                calculated inaccurately and did not agree with data in the Facility
Accurate or                  Inventory Maintenance Management System (FIMMS). This
Current                      system is the data source for the measures related to administrative
                             facilities and roads. Administrative facilities in good or fair
                             condition were reported as 84 percent, whereas FIMMS data
                             supports an 87 percent accomplishment. The error for roads was
                             significantly larger. The national program manager for facilities
                             and roads confirmed our calculation using FIMMS data, 64 percent
                             of roads were in good or fair condition rather than the reported 82
                             percent. The program manager could not explain how the
                             incorrect data were reported, particularly since the goal was 60
                             percent, and an 82 percent reported actual accomplishment should
                             have raised questions.

                             The accuracy and completeness of GPRA data reported for
                             facilities and roads depended on the accuracy of FIMMS. We
                             found, however, that FIMMS data were not current or complete
                             4
                               Information included in the narrative sections of the GPRA Report such as data
                             limitations and data sources.
                             5
                               The eight field offices visited during our fieldwork had oversight responsibility
                             for only 31 (3 percent) of BLM’s 1,124 dams. The sample was too small for us
                             to determine the accuracy of the reported data.



                                                                     10
because field specialists did not always consistently perform
cyclical condition assessments of these assets or update FIMMS
when they did perform assessments. As a result, there was no
assurance that the numbers calculated from data in FIMMS were
accurate.

According to BLM procedures, the condition of administrative
facilities should have been assessed in 1999. We found, however,
that condition assessments had not been updated since 1998 for
72 percent of facilities sampled at eight field offices (34 of 47
facilities) because either assessments were not done or information
was not entered into FIMMS. The situation for roads was similar.
Engineers at six of eight field offices visited stated that condition
assessments had not been performed for roads under their
jurisdiction. In one state, the two field offices visited were
responsible for maintaining over 16,000 road segments. For
94 percent of these segments, however, no date for condition
assessments had been entered in FIMMS, and for another
5 percent, the last condition assessment date listed was 1991. We
concluded that FIMMS data for administrative facilities and roads
were not current and therefore not reliable. BLM engineers
apparently agreed with us because only one state used FIMMS data
to select projects to be included in BLM’s 5-Year Deferred
Maintenance Plan. Several BLM staff told us that instead of using
FIMMS, they relied on their own records or “cuff notes” to track
facility and road conditions and maintenance work performed.

Although program staff at all levels were aware that FIMMS data
were incomplete and the system was difficult to use, BLM did not
disclose these limitations in the GPRA report. Instead, the data
verification and validation section of the report stated, “program
staff have used FIMMS for many years, so data entry errors or
inconsistent definitions are not likely.” Management Systems
Group managers, who accumulated GPRA information and
prepared the Report, agreed they included this information without
consulting program managers. This section also incorrectly
identified the BLM Management Information System (MIS) as
another data source for facilities and roads. We also noted that
BLM reported fiscal year 2000 accomplishments for all the
facilities and roads performance measures as a percentage only and
did not include information on the total number of facilities or the
number of facilities in good or fair condition. Inclusion of this
information would have helped BLM identify errors in reporting
on administrative facilities and roads accomplishments.




                                 11
                  BLM provided limited training in the use of FIMMS, which
                  negatively affected the willingness and ability of field office staff
                  to enter information into FIMMS. BLM staff told us that FIMMS
                  was also not being updated because BLM planned to transfer its
                  maintenance data to a new system called MAXIMO, which is
                  currently a pilot program and which may not be operational for at
                  least 3 to 4 years. In addition, BLM recognized that it would take
                  significant resources to correct and validate data from FIMMS
                  prior to transferring the data to MAXIMO.

CASHE Data        The accuracy of the CASHE data was questionable for several
                  reasons: the data was based on a projection, the facilities self-
Accuracy was      reported corrected deficiencies, and some data may be as old as 7
Questionable      years. The fiscal year 2000 GPRA Report did not disclose that the
                  59 percent accomplishment rate was based on a projection. BLM
                  made the projection by surveying all facilities with CASHE
                  inspections and asking the facilities to identify how many
                  uncorrected findings still remained. The facilities determined
                  when a finding was corrected, with no independent verification
                  until the next CASHE inspection. In addition, facilities were not
                  required to correct CASHE health and safety findings within a
                  specified time or to provide evidence of correction when closing a
                  finding. BLM used the responses, which were received from just
                  over half of the facilities surveyed, to estimate the number of all
                  facilities in good safety, health, and environmental condition. In
                  the fiscal year 2000 GPRA Report, BLM stated that it had
                  validated the estimated 1998 baseline with fiscal year 2000 data,
                  but did not disclose that this was done using a projection.

                  Another factor impacting the accuracy of fiscal year 2000 CASHE
                  data was the length of time between inspections. Completion of
                  the first set of CASHE inspections for all BLM facilities occurred
                  over a 7-year period. Five of the facilities (10 percent) reported in
                  good condition for fiscal year 2000 were inspected more than
                  5 years ago. The second round of CASHE inspections are
                  underway and should be completed within 3 years. Both the
                  shorter inspection cycle and the planned new data system
                  (discussed on page 17 of this report) should improve the accuracy
                  of CASHE GPRA reporting.

Abandoned Mines   Our review of the data reported by BLM offices in four states for
                  corrective actions taken at abandoned mine sites with physical
Reporting was     safety hazards found that one state under-reported and two states
Inaccurate        over-reported the number of sites corrected (please see Table 4).
                  We verified reported corrections at state and field offices by
                  requesting lists of mines where physical safety hazards were



                                                   12
                      corrected in fiscal year 2000. We then compared the lists to
                      summary data in BLM’s MIS database, which is used to report
                      GPRA data. We compared the description of the activity
                      accomplished to the performance measure definition and
                      determined whether the activity met the definition. Where we
                      identified discrepancies, we followed up with the state or field
                      specialist. The discrepancies identified were usually the result of
                      reporting in the wrong year or reporting under the wrong program
                      element. Some discrepancies could not be explained.

                                                     Table 4

                                                        Hazards Corrected
                               State
                                             Reported       Verified      Over (Under)
                             California         30              21              9
                             Colorado          158            185             (27)
                              Nevada           321            321               0
                              Oregon            10               4              6

                      We also identified potential accuracy problems related to what
                      actions should be counted as GPRA accomplishments. Field staff
                      stated that interpretations differed as to whether individual features
                      at a site, such as a shaft, could be corrected and reported as an
                      accomplishment or whether the entire site had to be corrected
                      before reporting an accomplishment. Current guidance does not
                      provide a precise definition of a reportable site with physical safety
                      hazards. As a result, one field office reported 11 abandoned mine
                      corrections associated with one site. Another state reported six
                      abandoned mine corrections at one site. We believe that program
                      staff should also consider whether temporary mine closures
                      adequately fulfill the long-term GPRA goal of reducing threats to
                      health and safety. For example, erecting warning signs or fences
                      around hazardous areas may or may not be sufficient action
                      depending on the risk factors of the site.

                      We also determined that the data verification and validation
                      section of the fiscal year 2000 GPRA Report incorrectly identified
                      the Abandoned Mine Lands Inventory System (AMLIS) as the data
                      source for abandoned mines. The actual data source for GPRA is
                      the MIS. We confirmed with program staff that AMLIS was not
                      fully functional as a database for abandoned mines with physical
                      safety hazards.

Hazardous             BLM offices in four states over-reported cleanup accomplishments
                      at hazardous material sites (please see Table 5). We verified
Materials Reporting   reported corrections at state and field offices by requesting lists of
was Inaccurate        hazardous material sites where cleanup activity took place in fiscal


                                                        13
                  year 2000. We then compared the lists to summary data in BLM’s
                  MIS database, which was used to report GPRA data. We
                  compared the description of the activity accomplished to the
                  performance measure definition and determined whether the
                  activity met the definition. Where we identified discrepancies, we
                  followed up with the state or field specialist. The discrepancies we
                  identified were usually the result of reporting in the wrong year or
                  reporting under the wrong program element. Some discrepancies
                  could not be explained.

                                                     Table 5

                                                           Cleanup Actions
                             State
                                             Reported          Verified            Over
                          California           60                17                 43
                          Colorado             13                11                  2
                           Nevada              25                24                  1
                           Oregon              85                31                 54

                  Interpretations differed as to whether to count a response with no
                  cleanup action as an accomplishment. While additional guidance
                  for reporting hazardous material accomplishments was provided in
                  March 2000, field personnel stated that interpretation problems
                  related to defining a reportable accomplishment still existed.
                  Acknowledging these problems, BLM completed four workshops
                  at different state offices to clarify reporting requirements for fiscal
                  year 2001. The most recent workshop was held in November 2001
                  in California.

Law Enforcement   Although GPRA data for law enforcement were readily available
                  from BLM’s LAWNET database, the accomplishment for law
Accomplishment    enforcement was overstated by an estimated 2 percent nationwide.
was Overstated    The wording of the law enforcement goal “percentage of reported
                  violations resulting in enforcement actions” implies a one-to-one
                  relationship between violations and enforcement actions. A
                  violation, however, may have more than one enforcement action,
                  and 127 of fiscal year 2000 violations had two or three
                  enforcement actions6. In one example, a “theft from vehicle”
                  violation resulted in two enforcement actions—a criminal
                  complaint lodged with state or local officials and an arrest.
                  Another example was a “marijuana cultivation” violation, which
                  resulted in the execution of a search warrant and an arrest.


                  6
                    Our analysis included data reported as of June 2001 for fiscal year 2000. This
                  included an additional 1,833 violations not incorporated in the October MIS
                  used for fiscal year 2000 GPRA reporting.



                                                         14
                 We noted that the LAWNET system had some procedures for
                 verifying and supporting data. Law enforcement officers in the
                 field directly entered information into the LAWNET system,
                 which was approved (verified) by managers before the entries were
                 “uploaded.” Although this approval constituted a data quality
                 control, one manager told us that his officers approved their own
                 entries with his permission. Law enforcement officers also kept
                 logbooks of their activities, which supported entries into
                 LAWNET.

                 While the net effect of multiple enforcements of 2 percent for
                 fiscal year 2000 was small, the planned annual improvement in the
                 goal was only 1 percent. We understand that tracking all
                 enforcement actions for a violation is important for the
                 management of the law enforcement program; however, counting
                 more than one enforcement action for any one violation is not
                 accurate for GPRA reporting. We believe this problem could be
                 resolved by deducting multiple enforcements entered in LAWNET
                 from the enforcement totals prior to submitting the data for
                 inclusion in GPRA.

Data Were Not    Many of the problems with the accuracy of data and related
                 information in the fiscal year 2000 GPRA Report occurred because
Systematically   BLM managers at all levels did not systematically verify data.
Verified         BLM could have identified and corrected the data errors we noted
                 if managers at each level had ensured the accuracy of reported
                 data.

                 The Management Systems Group performs annual reviews of
                 selected measures at judgmentally selected offices, but has
                 reviewed only a portion of BLM’s GPRA activities. In 1999, a
                 Management Systems Group specialist visited offices in three
                 states and reviewed 13 of 67 GPRA measures. In 2000, the same
                 specialist visited two states and reviewed 9 of 45 GPRA measures.
                 During our audit, we reviewed Management Systems Group
                 reports and accompanied the specialist on the 2001 review in
                 Idaho. We found the site visit and reports identified problems with
                 data collection for GPRA measures and suggested corrective
                 actions. The Management Systems Group could improve its data
                 validation and verification process by establishing a more
                 systematic method of selecting measures and field offices for
                 review and by establishing follow-up procedures to ensure that
                 corrective actions were taken.

                 Data verification work at the program level was limited.
                 Headquarters program managers and some managers at state and



                                                 15
field offices said that they compared targets and accomplishments
for reasonableness. They did not make these comparisons
systematically, however, and this procedure does not ensure that
reported data are accurate. Performance data should be verified
from the bottom up by BLM staff most familiar with day-to-day
program activities. Such verification, however, is not being done.
Field office staff told us that they were often not sure how program
activities they performed were incorporated into the GPRA report
or how the quality of their GPRA reporting could impact their
program in the long term.

BLM has not established a systematic procedure to accumulate
sufficient information to support the data included in the GPRA
report for most of the measures. This is particularly a problem for
three of the measures we reviewed: abandoned mines with
physical safety hazards, hazardous materials cleanup, and CASHE.
BLM used the MIS to report GPRA data for abandoned mine lands
and hazardous materials, and we expected that, at a minimum,
BLM managers could provide us with a list of accomplishments
reported. The MIS, however, contains only cumulative numbers
without specific details of actual accomplishments.

Field office managers were also unable to identify and verify
accomplishments reported to the state office for GPRA purposes,
in part because field office specialists were not required to provide
documentary evidence to support the number entered in the MIS.
Maintenance of records of accomplishments by field specialists is
vital and need not be burdensome. A simple spreadsheet or journal
entry of accomplishments completed with dates, contract dollars,
and other pertinent information would be sufficient. Some field
specialists kept this kind of information, but apparently did not
forward it to managers with the MIS data.

Likewise, state program managers should be able to identify and
verify accomplishments from their field offices before forwarding
this information to Headquarters. The four state managers for the
hazardous materials and abandoned mines programs, however,
could not immediately identify their state’s accomplishments
without first contacting field office specialists. National program
managers, who should maintain minimal records of
accomplishments being reported through them by states and
incorporated into the annual GPRA report, also could not provide
us with a listing of the 650 abandoned mine sites with physical
safety hazards corrected or the 290 hazardous material sites
cleaned up.




                                 16
                    Another verification issue is related to the BLM CASHE facilities.
                    These facilities self-report that they have taken action to correct
                    findings, but were not required to provide evidence showing that
                    they handled the problems properly. The CASHE Program also
                    did not have a tracking system to document corrective actions
                    taken. The lack of a tracking system is significant because the
                    findings requiring corrective actions could be violations of federal
                    laws and regulations. The CASHE program manager is developing
                    a new information system capable of generating reports that
                    describe uncorrected high priority findings. The system will be
                    tested in fiscal year 2002 and should be fully operational in fiscal
                    year 2004, thereby supporting the compilation and verification of
                    data that can be used to support this GPRA goal.

Improving the       Establishing appropriate goals that focus on mission results is key
                    to the performance management process. If BLM’s annual GPRA
Usefulness of the   reports are to be useful to decision makers in BLM, Congress, and
GPRA Report to      OMB, BLM should revise its GPRA goals and measures to focus
Decision Makers     more on mission, performance, and results and improve the
                    accuracy and completeness of its data. Through its choice of
                    GPRA goals, BLM should be identifying its highest program
                    priorities to its own managers and employees and to Congress and
                    OMB.

                    Once BLM has selected appropriate goals and measures, it should
                    ensure accurate, sufficient, and relevant information on program
                    results to allow managers to assess what their programs do to
                    achieve BLM objectives, how much they cost, and how
                    effectiveness could be improved. Accurate and timely
                    performance data would also provide BLM with better control over
                    resources used and improve accountability for results by program
                    managers.

                    Appropriate goals and measures and accurate information are also
                    needed to achieve the major GPRA objective of helping Congress
                    develop a clearer understanding of what is being achieved in
                    relation to what is being spent. Congress can then determine
                    whether progress is being made and whether the level of
                    performance is sufficient to justify federal resources and effort.


Recommendations     We recommend that the Director, BLM:

                    1. Revise or develop the GPRA goals and measures, as needed,
                       using the experience of 3 years of collecting and reporting
                       GPRA data to ensure that all goals and measures support the


                                                    17
                       overall goal of reducing threats, are under direct control of
                       BLM managers, and are outcome based to the extent feasible.

                    2. Improve guidance and training on GPRA performance
                       reporting at all levels of BLM, with emphasis on how GPRA
                       reporting requirements link with the day-to-day operations of
                       field personnel.

                    3. Develop procedures to accumulate information supporting the
                       GPRA data reported.

                    4. Ensure the accuracy of the GPRA data reported by establishing
                       a data verification and validation process that includes
                       accountability by field, state, and national managers
                       responsible for these programs.

                    5. Require certification of the accuracy of reported GPRA data at
                       each level of reporting including field offices, state offices, and
                       national program offices.

                    6. Ensure the completeness and accuracy of information in the
                       GPRA report related to data sources and limitations.


Agency Response     In the July 31, 2002 response to the draft report (Appendix 3), the
and Office of       BLM Director concurred with the report’s six recommendations.
                    The Director stated that BLM is taking steps to improve the GPRA
Inspector General   data reported. Subsequent contact with BLM officials provided the
Reply               milestone dates for implementing these steps. BLM is planning
                    the following actions to address our respective recommendations.

                    1. BLM’s Protection and Response Group has established a team
                       to develop or improve performance measures to be more
                       outcome oriented and link more directly to reducing threats.
                       BLM’s new strategic plan, containing the revised measures,
                       will be completed by September 30, 2003.

                    2. BLM’s Business and Fiscal Resources Directorate is
                       developing a training program which will emphasize how
                       performance and cost data link to daily work and operations.
                       Training modules will be implemented by September 30, 2003.
                       Additionally, an Instruction Memorandum clarifying the
                       GPRA reporting requirements and emphasizing how they link
                       with day-to-day operations of field personnel will be
                       distributed by October 31, 2002.



                                                     18
3. Through the Annual Work Plan Directives, BLM will require
   State and Field Office program leads to maintain information
   that supports the GPRA data reported. The Annual Work Plan
   will be distributed by February 1, 2003.

4. BLM will require State and Field Offices to complete a Data
   Validation and Verification Assessment Matrix survey by July
   30, 2003. The survey results will be used by the Bureau to
   select sites and programs for evaluation to improve
   accountability by field, State, and national program managers
   in fiscal year 2004.

5. Through the Annual Work Plan Directives, BLM will direct the
   Washington Office, State and Field Offices to certify that
   accomplishments were reported accurately and consistent with
   data validation and verification procedures. Certification will
   occur as part of BLM’s quarterly review process. The Annual
   Work Plan will be distributed by February 1, 2003.

6. Beginning with the fiscal year 2000 Accountability Report,
   BLM will implement the Department’s data validation and
   verification requirements. BLM’s performance measure data
   will be reviewed internally and surnamed by the appropriate
   managers for accuracy. The fiscal year 2002 Accountability
   Report will be issued by December 31, 2002.

Accordingly, the Director’s response and supplemental
information is sufficient to consider the six recommendations
resolved, but not implemented. The six recommendations will be
referred to the Assistant Secretary for Policy, Management and
Budget for tracking of implementation (Appendix 4).




                               19
Appendix 1
Scope and Methodology

                The scope of our audit included a review of BLM procedures for
                establishing performance goals and measures, reporting
                performance accomplishments, and verifying and validating
                performance data. To accomplish our objectives, we reviewed
                BLM performance goals, measures, and accomplishments for
                fiscal year 2000 and performance plans for fiscal years 2000 and
                2001. We interviewed BLM staff in Headquarters and in four state
                and eight field offices (please see Table 5). We also reviewed the
                Management Systems Group’s annual validation reports for 1999
                and 2000 and accompanied BLM staff on the 2001 GPRA
                verification and validation review in Idaho (Table 5). Our
                fieldwork was performed from April through September 2001.
                Please see the Appendix 2 for prior reports and publications related
                to our review.

                In addition, we reviewed relevant DOI and BLM annual reports
                and assurance statements for fiscal years 1998 through 2000.
                These documents identified safety management as a material
                weakness in BLM’s management controls and BLM and
                Department-wide maintenance management as mission critical
                material weaknesses.

                Our audit was conducted in accordance with “Government
                Auditing Standards,” issued by the Comptroller General of the
                United States. Accordingly, we included such tests of records and
                other auditing procedures that were considered necessary to
                accomplish our objectives.




                                                20
Appendix 1
Scope and Methodology

                                              Table 6

                                          Sites Visited
                                Office                   Location
                        Headquarters Office     Washington, DC
                        State Offices           Sacramento, California
                                                Denver, Colorado
                                                Reno, Nevada
                                                Portland, Oregon
                        District/Field Offices Folsom, California
                                                Hollister, California
                                                Gunnison, Colorado
                                                Royal Gorge, Colorado
                                                Carson City, Nevada
                                                Elko, Nevada
                                                Eugene, Oregon
                                                Prineville, Oregon
                               Verification And Validation Review
                        National Interagency Boise, Idaho
                        Fire Center
                        State Office            Boise, Idaho
                        Field Office            Shoshone, Idaho




                                                21
Appendix 2
Prior Audit Coverage

                 Increasing interest in performance management has resulted in
                 increased attention to GPRA planning and reporting by our office
                 and the General Accounting Office (GAO). Summaries of OIG
                 reports and GAO testimony are as follows:

                     •   In 2000, we suggested improvements in BLM’s Fiscal Year
                         1999 Performance Report and 2001 Annual Performance
                         Plan.7 Our suggestions included providing additional
                         information to fully explain the goals and measures and the
                         significance of each, describing the total program area for
                         which a measure had been established, establishing more
                         precise and limited goals to measure program performance,
                         and adding annual goals or measures for some programs.

                     •   In July 2000, GAO testified8 on the challenges identified in
                         the implementation of GPRA. The challenges included
                         articulating a results orientation, coordinating crosscutting
                         issues, showing performance consequences of budget
                         decisions and the contribution of daily operations to results,
                         and building the capacity to gather and use performance
                         information. GAO also highlighted the implementation of
                         GPRA and the steps needed to maximize the usefulness of
                         GPRA for Congress and the executive branch.

                     •   In 2001, we issued a management letter9 identifying
                         concerns about the GPRA reporting process. We
                         recommended that when using a percentage format, BLM
                         report all performance indicators used in the calculation
                         and all relevant facts necessary for the reader to understand
                         the data.


                 7
                   Review of the Fiscal Year 1999 Performance Reports and Fiscal Year 2001
                 Performance Plans for the U.S. Department of the Interior, OIG Report No. 00-
                 I-533, June 2000.
                 8
                   Managing for Results: Continuing Challenges to Effective GPRA
                 Implementation, Testimony No. GAO/T-GGD-00-178, July 2000.
                 9
                   Management Letter: Management Issues Identified During Audit of the
                 Bureau of Land Management’s Financial Statements for Fiscal Year 2000, OIG
                 Management Report No. 01-I-309, March 2001.




                                                      22
Appendix 3
Agency Response




                  23
Appendix 3
Agency Response




                  24
Appendix 3
Agency Response




                  25
Appendix 3
Agency Response




                  26
Appendix 4
Status of Audit Recommendations


       Recommendation        Status              Action Required
         1 through 6    Resolved; not   No further response to the Office of
                        implemented     Inspector General is necessary. The
                                        recommendations will be referred to
                                        the Assistant Secretary for Policy,
                                        Management and Budget for
                                        tracking of implementation.




                                                27
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free               800-424-5081
                             Washington Metro Area           202-208-5300
                             Hearing Impaired (TTY)          202-208-2420
                             Fax                             202-208-6081
                             Caribbean Region                340-774-8300
                             Northern Pacific Region         671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
